Supreme Court, U.S.
FILED

OCT 3 1 2020
No:

giQ-UH

OFFICE OF THE CLERK

3fn®fje

Supreme Court of tftc ?Hniteb State*
♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦

LARRY GOLDEN,
Petitioner,
v.

APPLE INC., SAMSUNG ELECTRONICS, USA, LG ELECTRONICS, USA,
INC., QUALCOMM INC. AT&T INC., MOTOROLA SOLUTIONS INC.,
PANASONIC CORP., VERIZON CORPORATE SERVICES GROUP, SPRINT
CORP., T-MOBILE USA, INC., FORD GLOBAL TECHNOLOGIES, LLC,
FAIRWAY FORD LINCOLN OF GREENVILLE, GENERAL MOTORS
COMPANY, KEVIN WHITAKER CHEVROLET, FCA US LLC, BIG O
DODGE CHRYSLER JEEP RAM,
Defendants
♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦

On Petition For Writ Of Certiorari To The United States
Court Of Appeals For The Federal Circuit
♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦

PETITION FOR WRIT OF CERTIORARI
♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦♦

Larry Golden, Petitioner, Pro Se
740 Woodruff Rd„ #1102
Greenville, South Carolina 29607
(864) 288-5605
atpg-tech@charter.net
X

r- ;

-X

r—;

l

RECEIVED
NOV -4 2020

r-

I

!

;
■

•

I

\

.J

OFFICE OF THE CLERK
SUPREME COURT. U.S.

ii

QUESTION PRESENTED
At a minimum, I need only show three things in order to have standing to sue: (1)
that I have suffered an “injury in fact”; (2) that the injury is fairly traceable to the challenged
action of the defendant; and (3) that it is likely that a favorable decision will fully redress the
injury. See, for example, Lujan v Defenders of Wildlife, 112 S Ct 2130, 2136 (1992). These three
requirements are derived from Article III of the Constitution, which limits the judicial power to
“Cases” and “Controversies.” US Const, Art I, § 2. They must be shown “at a minimum”
because prudential requirements of standing might also limit plaintiffs.
Patents are only valuable if they can be enforced, so any “unjustified” decisions
made on valid patents by the Courts, that make enforcing a patent virtually impossible, more
expensive and less certain as to the outcome, harms the patent owner and undermines the ability
of the U.S. economy to protect inventors’ rights.
The Second Circuit has decided that it is not the district court's task in reviewing a
motion to dismiss to decide between two plausible inferences that may be drawn from the factual
allegations in the complaint: “A court ruling on such a motion may not properly dismiss a
complaint that states a plausible version of the events merely because the court finds a different
version more plausible.” Anderson News, L.L.C. v. Am. Media, Inc., 680 F.3d 162, 185 (2d Cir.
2012), cert, denied, 133 S. Ct. 846 (2013).
Even after Twombly and Iqbal, “in determining whether a complaint states a claim
that is plausible, the court is required to proceed ‘on the assumption that all the [factual]
allegations in the complaint are true’, [e]ven if their truth seems doubtful.” Id. at 185 (court's
emphasis) (quoting Twombly, 550 U.S. at 556).

iii

Is it a question of law, for the District Court and/or the Appeals Court judges to
unjustly violate a Pro Se litigant’s procedural due process, or violate a Pro Se litigant’s right
under the Seventh Amendment of the Constitution to a jury trial, while inappropriately applying
the pleading standards established by Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007), and
Ashcroft v. Iqbal, 556 U.S. 662 (2009), to destroy all economic value of Pro Se litigant’s valid
intellectual property rights, i.e. patents?1

1 Is it a question of law (legal), for the District Court and/or the Appeals Court judges (when acting on defendants’
behalf by submitting defense motions to dismiss), to unjustly violate a Pro Se litigant’s procedural due process
(afforded by the Courts of certain procedures; "due process", before depriving [patent owners] individuals of certain
interests—life, liberty, or [patent] property), or, violate a Pro Se litigant’s right under the Seventh Amendment of the
Constitution (guarantees the right to jury trial in certain civil cases and requires civil jury trials in federal courts),
while inappropriately applying the pleading standards (courts do not require “heightened fact pleading of specifics”;
but only, “enough facts to state a claim to relief that is plausible on its face”), established by Bell Atlantic Corp. v.
Twombly, 550 U.S. 544 (2007), and Ashcroft v. Iqbal, 556 U.S. 662 (2009)?

iv

PARTIES TO THE PROCEEDING
The parties to the proceeding in the United States Court of Appeals for the Federal
Circuit were Petitioner Larry Golden and Respondents United States District Court for the
District of South Carolina.

V

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED Sought

11

PARTIES TO THE PROCEEDINGS

IV

TABLE OF AUTHORITIES

vm

OPINIONS BELOW

1

JURISDICTION

1

STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED

1

INTRODUCTION

3

STATEMENT OF THE CASE

7

I.

Current Case

REASONS FOR GRANTING THE WRIT
I.
II.
III.

8

13

FED. R Civ. P. 8(a)

14

Pro Se

15

Disparate Treatment

16

INITIAL COMPLAINT and AMENDED
COMPLAINT (Chart)
CANON 3

18
22

vi

I.

The United States District Court for the District of Minnesota
in No. 0:17-cv-00369; MetroSpec Technology LLC v. Hubbell
Lighting, Inc. Date filed: 02/03/2017 COUNT I: (Infringement
of the ‘631 Patent)

II.

23

The United States District Court for the District of South
Carolina in No.6:19-cv-01322-DCC Corning Optical
Communications LLC v. FiberSource Inc. Donald C Coggins,
Jr, presiding; Date filed: 05/06/2019; Date of last filing:
08/19/2020 COUNT I: Patent Infringement of U.S. Patent No.
7,090,406 B2

III.

24

The United States District Court for the District of
South Carolina in No. 6:19-cv-02557-DCC Golden v.
Apple, Inc. Donald C Coggins, Jr, presiding COUNT I:
(Infringement of the ‘287 Patent)

IV.

25

APPLE’S FIRST iPHONE DESIGN PATENT
CHART APPLE’S ELECTRONIC DEVICE v.
GOLDEN’S CMDC DEVICE

29

ENOUGH FACTUAL ALLEGATIONS

34

CONCLUSION

38

vii

INDEX OF APPENDICES
Page
APPENDIX A - Order: Denying En Banc Rehearing; United States
Court of Appeals for the Federal Circuit (CAFC) (10/07/2020)

1

APPENDIX B - Opinion: Terminated; United States Court of
Appeals for the Federal Circuit (CAFC) (09/03/2020)

3

APPENDIX C - Appeal: United States Court of Appeals for the
Federal Circuit (CAFC) (02/25/2020)

8

APPENDIX D - Dismissal Order: Judge Donald C. Coggins, Jr.
U. S. District Court for the District of South Carolina (01/27/2020)

33

APPENDIX E - Plaintiffs Objection to Report and Recommendation:
(1/13/2020)

39

APPENDIX F - Report and Recommendation: Magistrate Judge Kelvin
McDonald; U. S. District Court for the District of S. C. (01/09/2020)

55

APPENDIX G - Order: Magistrate Judge Kelvin McDonald; United
States District Court for the District of South Carolina (10/01/2019)

63

APPENDIX H - Amended Complaint: United States District Court
for the District of South Carolina (10/15/2019)

70

APPENDIX I - Complaint: United States District Court for the
District of South Carolina (09/11/2019)

323

viii

TABLE OF AUTHORITIES

In Stop the Beach Renourishment v. Florida Department ofEnvironmental
Protection, 130 S. Ct. 2592 (2010)

2

Larry Golden v. USA; Civil Docket for Case #: 1:13-Cv-00307

3

Microsoft Corp. v. i4i Limited Partnership, [2011]

3

Return Mail Inc. v. United States Postal Service

3,6

Golden v. United States, 129 Fed. Cl. 630 (2016)
Golden v. Apple, Inc. etal Case No. 6:19-cv-02557-DCC

6
8, 10, 22, 23,25,27

Nalco Co. v. Chem-Mod, LLC, 2018 WL 1055851
(Feb. 27, 2018)

11, 12, 14,21,35

Sutton v. Duke, 277 N.C. 94,103, 176 S.E.2d 161, 166 (1970)

11,21

Raptor, LLC. and Concrete Services, LLC. v. Odebrecht Construction,
Inc. and Barreiro Construction Corp., NO. 17-21509-CIVALTONAGA (S.D. Fla. Feb. 13, 2018)

11,21

Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007)

13, 15, 16, 17, 18

Ashcroft v. Iqbal, 556 U.S. 662 (2009)

13, 15, 16, 17,18

In re Bill ofLading Transmission & Processing Sys. Pat. Litig.,

681 F.3d 1323,1341 (Fed. Cir. 2012)

14, 17

Eli Lilly & Co. v. Hospira

14

EMED Techs. V. Repro-Med.

14

Verinata Health v. Ariosa Diagnostic

14

Haines v. Kerner, 404 U.S. 519, 520 (1972)

15,35

ix

Conley v. Gibson

15

Hughes v. Rowe, 449 U.S. 5,15 (1980).............................................

15

Severin v. Parish of Jefferson, 357 F. App’x 601, 603 (5th Cir. 2009)

15

Grabauskas v. CIA, 354 F. App’x 576, 576-77 (2d Cir. 2009)

15

DiPetto v. U.S. Postal Serv., 383 F. App’x 102, No. 09-3203-cv,
2010 WL 2724463 (2d Cir. Jul. 12, 2010)

16, 17

Swierkiewicz v. Sorema N.A., 534 U.S. 506, 514 (2002)

16, 17

Harris v. Mills, 572 F.3d 66, 71-72 (2d Cir. 2009)

16

Triestman v. Fed. Bureau ofPrisons, 470 F.3d 471,474-75
(2d Cir. 2006)
Boykin v. KeyCorp, 521 F.3d 202, 212 (2d Cir. 2008)

16
16, 17

Phillip v. Univ. ofRochester, 316 F.3d 291, 298 (2d Cir. 2003)

17

McKnight v. Gen. Motors Corp., 511 U.S. 659, 660 (1994)

18

Araujo v. E. Mishan & Sons, Inc., No. 19-cv-5785 (GHW)(SN)
(S.D.N.Y. Aug 7, 2020)

18

Avago Techs. Gen. IP (Singapore) PTE Ltd. v. Asustek Computer,
Inc., 2016 WL 1623920, at *4 (N.D. Cal. Apr. 25, 2016)

18

Graver Tank & Mfg. Co. v. Linde Air Prods. Co., 339 U.S.
605, 608 (1950)

19

Q-Pharm, Inc. v. Andrew Jergens Co., 360 F.3d 1295,
1301 (Fed. Cir. 2004)

19

Harris v. NCNB Nat’l Bank ofN.C., 85 N.C. App. 669, 670,
355 S.E.2d 838, 840(1987)

21

X

MetroSpec Technology LLC v. Hubbell Lighting, Inc
Corning Optical Communications LLC v. FiberSource Inc
Summagraphics Corporation v. U S.

.23, 28, 33
,23, 24, 28, 33
33

1

PETITION FOR A WRIT OF CERTIORARI
Larry Golden petitions for a writ of certiorari to review the judgement of the
United States Court of Appeals for the Federal Circuit in this case.

OPINIONS BELOW
The Court of Appeals opinions addressing the question (App. 1-2), (App. 3-7) and
(App. 8-32) are unreported. The District Court opinions addressing the question (App. 33-38),
(App. 39-54), (App. 55-62), (App. 63-69) are unreported. The Amended complaint (App. 70322) and the Original complaint (App. 323-479) addressing the question are unreported.

JURISDICTION
The Court of Appeals entered judgement on September 03, 2020 (App. B). The
Court denied a timely petition for rehearing en banc on October 07, 2020 (App. A). This Court
has jurisdiction under 28 U.S.C. § 1254(1)

STATUTES AND CONSTITUTIONAL PROVISIONS INVOLVED
“Canon 3: A Judge Should Perform the Duties of the Office Fairly, Impartially
and Diligently (C) Disqualification. (1) A judge shall disqualify himself or herself in a
proceeding in which the judge’s impartiality might reasonably be questioned, including but not
limited to instances in which: (a) the judge has a personal bias or prejudice concerning a party, or

2

personal knowledge of disputed evidentiary facts concerning the proceeding: (d)(ii) acting as a
lawyer in the proceeding.”
28 U.S.C. § 1491(a) claim of “Government Takings of Property under the Fifth
Amendment Clause” In Stop the Beach Renourishment v. Florida Department ofEnvironmental
Protection, 130 S. Ct. 2592 (2010). Justice Scalia, writing for Chief Justice Roberts, Justice
Thomas, and Justice Alito, wrote that the Constitution does protect property owners (i.e. patent
owners) against takings effectuated by the judiciary, in the same way that it protects them against
takings perpetrated by legislatures or executives. In the plurality’s view, “it would be absurd to
allow a State to do by judicial decree what the Takings Clause forbids it to do by legislative fiat.”
35 U.S. Code § 154(a)(1); “[ejvery patent shall contain a short title of the
invention and a grant to the patentee, his heirs or assigns, of the risht to exclude others from
making, using, offering for sale, or selling the invention throughout the United States or
importing the invention into the United States, and, if the invention is a process, of the risht to
exclude others from using, offering for sale or selling throughout the United States, or importing
into the United States, products made by that process, referring to the specification for the
particulars thereof’ In Stop the Beach Renourishment v. Florida Department of Environmental
Protection, 130 S. Ct. 2592 (2010). “if a legislature or a court declares that what was once an
established risht of private property no longer exists, it has taken that property, no less than if
the State had physically appropriated it or destroyed its value by regulation.”
The Seventh Amendment: “guarantees the right to jury trial in certain civil cases”
... “where the value in controversy shall exceed twenty dollars, the right of trial by jury shall be
preserved” ... “requires civil jury trials only in federal courts”.

3

INTRODUCTION
In year 2013,1 had a conversation with the lead attorney for the Department of
Justice (DOJ), (Notice of Appearance by Kirby Wing-Kay Lee for USA. Service: 6/27/2013.
(bre) (Entered: 06/28/2013)) in a related case to this case, “alleging patent infringement against
the government”, see Larry Golden v. USA; Civil Docket for Case #: 1:13-Cv-00307; Judge
Susan Braden presiding.
During the conversation I discussed how my patents asserted in the case was
issued with the “presumption of validity” (the patent act indicates that issued patents are
“presumed valid.” 35 U.S.C. § 282) and that the Supreme Court in Microsoft Corp. v. i4i Limited
Partnership, [2011], reiterated that a challenge to a patent’s validity in the District Courts cannot
be made on the lower standard of a “preponderance of evidence”, but has to be made on the
heightened standard of “clear and convincing evidence”.
Attorney Lee’s final response to me was, “there’s more than one way to invalidate
a patent”. I understood Attorney Lee’s response to mean, the DOJ (USA) can threaten or
intimidate the Judges; threaten and/or pay off the Judges; or remind the Judges that an AfricanAmerican (Black) should never be allowed to bring an action for the taking of property against
whites in a Court of Law.
In the first instance to invalidate my patents, the DOJ and DHS, who has never
been “persons” to challenge a patent’s validity at the Patent Trails and Appeals Board (PTAB),
see Return Mail Inc. v. United States Postal Service, in 2014 filed a petition for Inter Partes
Review (IPR) to invalidate certain claims of my RE43,990 patent. In Return Mail, [June 10,
2019], JUSTICE SOTOMAYOR delivered the opinion of the Court. Cite as: 587 U. S.
(2019); Opinion of the Court:

4

“[fjinally, excluding federal agencies from the AIA review proceedings avoids the
awkward situation that might result from forcing a civilian patent owner (such as Return
Mail) to defend the patentability of her invention in an adversarial, adjudicatory
proceeding initiated by one federal agency (such as the Postal Service) and overseen by a
different federal agency (the Patent Office). We are therefore unpersuaded that the
Government’s exclusion from the AIA review proceedings is sufficiently anomalous to
overcome the presumption that the Government is not a “person” under the Act.”

In the second instance to invalidate my patents, the PTAB instituted the DOJ and
DHS petition for Inter Partes Review (IPR), knowing, or should have known the DOJ and DHS
are not “persons” to challenge a patent’s validity at the Patent Trails and Appeals Board (PTAB),
and that the three patents of (Austin, Breed, and Mostov) asserted in the petition by the DOJ and
DHS did not antedate my ‘990 patent.
In the third instance to invalidate my patents: In year 2016 the Government filed
a motion to dismiss all of my alleged infringement claims in case no. 13-307C under 12(b)(1) &
(6). On Nov. 30, 2016 the trial Judge Braden denied the Government’s motion to dismiss.
According to Judge Braden, I had established jurisdiction, and had stated a claim upon which
relief can be granted. Two days after the Nov. 30, 2016 decision, on Dec. 2. 2016 the Judge,
without any motions or explanations, “decided to give the Government another chance”. In a
telephone conference Friday, December 2,2016 17 1:00 p.m. Telephonic Status Conference
BEFORE: THE HONORABLE SUSAN G. BRADEN. On the call, that had three white
Attorneys representing the Government from the DOJ and three white Attorneys representing the
Government from the DHS. Transcript:
“IN THE UNITED STATES COURT OF FEDERAL CLAIMS 2 3 LARRY GOLDEN, )
4 doing business as) 5 ATPG TECHNOLOGY, LLC,) Case No. 6 Plaintiff,) 13-307C 7
vs.) 8 THE UNITED STATES OF AMERICA,) 9 Defendant.) 10 11 12 Suite 702 13

5

Howard T. Markey National Courts Building 14 717 Madison Place, N.W. 15
Washington, D.C. 16 Friday, December 2, 2016 17 1:00 p.m. 18 Telephonic Status
Conference 19 20 21 BEFORE: THE HONORABLE SUSAN G. BRADEN 22 23 24 25
Elizabeth M. Farrell, CERT, Digital Transcriptionist. APPEARANCES: 2 ON BEHALF
OF THE PLAINTIFF: 3 LARRY GOLDEN, Pro Se 4 740 Woodruff Road 5 No. 1102 6
Greenville, South Carolina 29607 7 8 ON BEHALF OF THE DEFENDANT: 9
LINDSAY K. EASTMAN, ESQ. 10 JOHN FARGO, ESQ. 11 NICHOLAS KIM, ESQ.
12 U.S. Department of Justice 13 Commercial Litigation Branch - Civil Division 14 Post
Office Box 480 15 Ben Franklin Station 16 Washington, DC 20044 17 (202) 305-3075 /
(202) 307-0345 (fax) 18 lindsay.k.eastman@usdoj.gov 19 20 21 ALSO PRESENT: 22
Joseph Hsiao, Department of Homeland Security 23 Nathan Grebasch, Department of
Homeland Security 24 Trent Roche, Department of Homeland Security”
The Judge primary objective was to favor the Attorneys representing the
Government by first retracting the Order denying the Government’s motion to dismiss, the order
the Judge had just made two days prior. Second, to dismiss all of the alleged infringement claims
I asserted against the Department of Justice’s National Institute of Justice (NIJ). Transcript:
“MR. GOLDEN: I’m trying to find it now. After 6 I had filed the original complaint and
trying to do 7 discovery, then what I found was the original 8 solicitation and that
solicitation came from the 9 Department of Justice, the National Institute of Justice 10
itself. 11 THE COURT: ‘There is no such thing as the National Institute ofJustice that I
know of. 13 MR. GOLDEN: Okay. Well, it came from the 14 Department of Justice. 15
THE COURT: Well, what — but this contract 16 would have been issued from the Air
Force.” [[added] The National Institute of Justice (NIJ) is the research, development and
evaluation agency of the United States Department of Justice; established in 1968]].

Upon information and belief, Judge Braden was threatened or intimidated by the
three white Attorneys representing the Government from the DOJ and/or the three white
Attorneys representing the Government from the DHS; threatened and/or paid off by the three

6

white Attorneys representing the Government from the DOJ, and/or the three white Attorneys
representing the Government from the DHS; or Judge Braden’s personal prejudice that an
African-American {Black) should never be allowed to bring an action for the taking of property
against Whites in a Court of Law, is “why” the Judge dismissed my alleged infringement claims
against the Government; thereby invalidating my patents by destroying all of the patents
economic value.
In the fourth instance to invalidate my patents, the Supreme Court weighed in,
without ever having heard my case argued before the Court, in the dissent, in Return Mail Inc. v.
United States Postal Service [June 10, 2019] JUSTICE BREYER, with whom JUSTICE
GINSBURG and JUSTICE KAGAN join, dissenting, Cite as: 587 U. S.

(2019): “[w]hen,

for example, the Department of Homeland Security recently instituted a research initiative to
equip cell phones with hazardous-materials sensors in order to mitigate the risk of terrorist
attacks, it faced an infringement lawsuit that threatened to interfere with the project. See Golden
v. United States, 129 Fed. Cl. 630 (2016)”.
Upon information and belief, the District Court and the Federal Circuit has relied
on the dissenting opinion in Return Mail to dismiss my infringement and antitrust violation
lawsuits, under 12(b)(6) for “failure to state a claim for which relief can be granted”, because
certain JUSTICES believe I “threatened to interfere with the project of equipping cell phones
with hazardous-materials sensors” by the DHS to develop, manufacture, and commercialize my
communicating, monitoring, detecting, and controlling (CMDC) device designed “to mitigate the
risk of terrorist attacks”.
What’s amazing about this case is: the Defendants’ never filed a motion to
dismiss under 12(b)(6) for “failure to state a claim for which relief can be granted; never was

7

served, and therefore never had to file an answer to the alleged infringement claims; never had to
show my patents are invalid on a “clear and convincing evidence” standard; never had to show
their devices and products does not infringe; and, never had to present their defense before a
jury. In other words, all of the Defendants’ defense is being handled by the lower court Judges.
I’m not asking this Court to investigate the lower court Judges motives, or to
impose sanctions upon them. All I am asking for is an opportunity to exercise my right to a trial
by jury under the Seventh Amendment for alleged patent infringement against the Defendants for
“without authority making, using, offering to sell, or selling my patented inventions, within the
United States or for importing my patented inventions into the United States. 35 U.S.
Code §271.
Please grant certiorari and close the “loop holes” to invalidating a patent owner’s
patents prior to a Markman ’s Hearing and a jury trial.

STATEMENT OF THE CASE
I invented the Communicating, Monitoring, Detecting, and Controlling (CMDC)
device; Network Connected Vehicle Systems (i.e. CMDC devices interconnected to a vehicle’s
operating system); Lock Disabling Mechanisms; and, Stall, Stop, and Vehicle Slow-Down
Systems (SSVSS). I initially invented the devices, products and systems for the Government to
mitigate terrorist attacks. In so doing, the devices, products and systems had to meet certain
requirements and standards to be commercialized to the general public.
The devices, products and systems cover the technical rational or approach to
certain economic stimulus packages devised to restore the Nation’s economy after the 9/11
terrorist attacks. The Government denied all conservations, visits, implied-in-fact contracts,

8

request for information, request for proposals, submitted proposals, cooperative agreements, CD
recordings, and allegations of infringement.
The Court of Federal Claims dismissed my claims of alleged infringement against
the Government for “lack of jurisdiction” and “failure to state a claim” because, as Judge Susan
Braden in COFC case no. 13-307C stated, “any use [of my Communicating, Monitoring,
Detecting, and Controlling (CMDC) devices, Network Connected Vehicle Systems (i.e. CMDC
device interconnected to a vehicle’s operating system); Lock Disabling Mechanisms; and, Stall,
Stop, and Vehicle Slow-Down Systems (SSVSS)], by the Government, is purely incidental”.
Therefore, according to Judge Susan Braden in COFC case no. 13-307C, the
Defendants (i.e. Apple Inc et al) are not Government contractors, which changes the jurisdiction
for an action of alleged patent infringement from the Claims Court to the District Courts.

I.

Current Case
The Magistrate Judge Kevin F. McDonald for the United States District Court for

the District of South Carolina in Case No. 6:19-cv-02557-DCC Golden v. Apple, Inc. et al where
Donald C Coggins, Jr. is the presiding District Court Judge; is not qualified, capable, or
competent to adjudicate this alleged patent infringement case because of the complexed statures
surrounding patent infringement. Magistrate Judge McDonald is not competent or skilled enough
to make recommendations in a patent infringement complaint.
According to Joseph Cranney, The Post and Courier, Nov. 27, 2019, 5 a.m. EST
who writes, “THE UNTOUCHABLES—Investigating South Carolina’s Judges: These Judges
Can Have Less Training Than Barbers but Still Decide Thousands of Cases Each Year.” “South
Carolina’s system for magistrate judges is unlike any state in the country, creating fertile ground

9

for incompetence and corruption. Most aren’t lawyers, but their decisions can have lasting
effects on the vulnerable people who come before them... [o]ver the past two decades,
magistrates have accepted bribes, stolen money, forced themselves on women and sprung their
friends from jail. They’ve flubbed trials, trampled over constitutional protections... [ujnlike
most states, South Carolina doesn’t require its magistrates to have law degrees... their numbers
have included construction workers, insurance agents, pharmacists

even an underwear

distributor... they undergo fewer hours of mandated training than the Palmetto State requires of
its barbers, masseuses and nail salon technicians... [t]o better understand this system, The Post
and Courier and ProPublica examined thousands of state records and compiled profiles of all
319 South Carolina magistrates...” The Magistrate Judge made this statement in his
recommendation to dismiss:
“For example, although the alleged infringed patents cover technology used in various
devices, the undersigned finds no questions of fact common to the construction of an
iPhone in comparison to the construction of a Samsung phone. Moreover, the technology
and manufacturing of a phone carries no common questions of fact with retailers of
vehicles, such as Big O Dodge or wireless service providers such as Verizon. Indeed, the
plaintiff has not plausibly alleged factual allegations evincing a concerted effort amongst
these defendants in infringing on his patents. As such, in its current state, the instant
matter is also subject to summary dismissal based upon improper joinder.”

It is not a question here of the manufacturing processes between the
“smartphones” of Apple and Samsung. It is a question of whether Apple and Samsung’s
“smartphones” directly infringe, or infringe through the doctrine of equivalents every element or
limitation of my patented CMDC device pursuant to 35 U.S.C. § 271(a), “literally or under the
doctrine of equivalents, by making, using, selling, and/or offering for sale in the United States
and without authority products that infringe such claims”.

10
The same applies to the retailers of vehicles such as Big O Dodge who uses my
CMDC device with their vehicles to control certain vehicle operating systems such as windows,
temperature, start/stop, lock/unlock, GPS locating and tracking, and the wireless service
providers such as Verizon (who sells and uses my CMDC device to generate revenue from
wireless and internet service).
I further established and justified the “joinder” because the CMDC (i.e.
smartphone) manufacturers such as Apple, Inc., who has developed a self-driving autonomous
vehicle can be joined with the retailers of vehicles such as Big O Dodge because they both are
potentially infringing at least one component of my stall, stop, and vehicle slow-down system of
my: lane departure stall, stop, and vehicle slow-down systems; unintended acceleration stall,
stop, and vehicle slow-down systems; adapted cruise control stall, stop, and vehicle slow-down
systems; reverse acceleration stall, stop, and vehicle slow-down systems; pre-crash stall, stop,
and vehicle slow-down systems; and/or, a crowd sourcing stall, stop, and vehicle slow-down
systems.
The operators or drivers of the vehicles are equipped with my CMDC devices that
includes at least one of a; new and improved desktop computers, new and improved PDAs, PCs,
laptops, cell phones, tablets, smartphones, or other wearables such as smartwatches, etc. that is
interconnected to vehicles’ operating systems and is capable of sending signals by way of
electromagnetic pulse, electrostatic discharge, microwave beam, or radio frequency for initiating
a stall, stop, and vehicle slow-down.
The Magistrate Judge Kevin F. McDonald for the United States District Court for
the District of South Carolina in Case No. 6:19-cv-02557-DCC Golden v. Apple, Inc. et al
overstepped his level of comprehension in two ways: First, he is not the inventor or innovator

11

such as Apple; and second, he is not a person skilled in the art to diagnose manufacturing
processes.
From 1977 onward, Robert William Kearns, the inventor of the intermittent
windshield wiper filed lawsuits against Ford, Chrysler, General Motors, and several European
carmakers, including Mercedes-Benz for using his invention of an intermittent windshield wiper
with their vehicles without authorization or license. Finally, in 1990, after more than a decade in
the legal system, the Ford Motor Company agreed to settle with Robert Kearns for $10.2 million.
In 1992, Kearns won a judgment against Chrysler for $30 million. Chrysler appealed the
decision, but it was upheld when the U.S. Supreme Court refused to hear Chrysler's appeal. In
2005, Robert Keams died of brain cancer. In 2008, Universal Pictures released the film "Flash of
Genius," a retelling of Kearns' story that starred Greg Kinnear as Keams. Therefore, the
Magistrate Judge at the District Court erred when he recommended dismissal for improper
joinder and that I did not allege enough factual allegations that is plausible.
The Magistrate Judge fact finding inquiry of how a smartphone is manufactured is
“inappropriate because a motion to dismiss tests the sufficiency of the complaint, not the merits
of the claim”... [t]he United States Court of Appeals for the Federal Circuit (“Federal Circuit”)
addressing the pleading standards for direct infringement... in the recent case of Nalco Co. v.
Chem-Mod, LLC, 2018 WL 1055851 (Feb. 27, 2018). “[A] complaint should not be dismissed
for insufficiency unless it appears to a certainty that plaintiff is entitled to no relief under any
state of facts which could be proved in support of the claim.” Sutton v. Duke, 277 N.C. 94, 103,
176 S.E.2d 161, 166 (1970) (emphasis omitted). Only a few factual allegations are required to
survive a Motion to Dismiss a complaint alleging patent infringement, held the Southern District
of Florida in Raptor, LLC. and Concrete Services, LLC. v. Odebrecht Construction,

12

Inc. and Barreiro Construction Corp., NO. 17-21509-CIV-ALTONAG A (S.D. Fla. Feb. 13,
2018).
It is my belief, the Magistrate Judge also recommended I not have a chance to
submit a second amended complaint, because he has a personal bias and prejudice concerning
me, a Black inventor seeking relief from “white” defendants. The United States Court of Appeals
for the Federal Circuit (“Federal Circuit”) addressed the pleading standards for direct
infringement... in the recent case of Nalco Co. v. Chem-Mod, LLC, 2018 WL 1055851 (Feb. 27,
2018). The district court had dismissed Nalco’s fourth amended complaint with prejudice for
failure to state a claim under Fed. R. Civ. P. 12(b)(6)... [t]he Federal Circuit reversed, finding
that it was improper to determine disputed claim constructions or make factual determinations on
the motion to dismiss. The Federal Circuit reiterated that the Federal Rules of Civil Procedure
generally require “only a plausible ‘short and plain’ statement of the claim showing that the
plaintiff is entitled to relief’... “a motion to dismiss tests the sufficiency of the complaint, not
the merits of the claim.”
I’m asking this Court to reverse the findings of the Federal Circuit, who was and
is complicit with the unjust recommendations of the Magistrate Judge. At the very least, the
Magistrate Judge should have allowed another amendment.
The procedural posture described above clearly indicates the deliberate attempts
made by the District Court and Circuit Court judges to take away my legal right as the owner of
the asserted patents, to exclude others from making, using, or selling my invention. The grant of
a frivolous 12(b)(6) motion to dismiss creates, without authorization or license, a “loop hole” for
the Defendants to freely, make, use, or sell my invention throughout the United States, or import
into the United States, products made by the process, “referring to the specification for the

13

particulars thereof’ 35 U.S. Code § 154(a)(1); without having to pay me a reasonable royalty
estimated by the Department of Justice (DOJ) to equate to “liability in the dozens of billions of
dollars”.
Therefore, it is my belief the District Court and Circuit Court judges were
threatened or intimidated by the Defendants; and/or the District Court and Circuit Court judges
were paid off by the Defendants; and/or the District Court and Circuit Court judges’ personal
prejudice that an African-American (Black) should never be allowed to bring an action for the
taking of his property against whites in a Court of Law, which is “why” the Judges’ dismissed
my alleged infringement claims against the Defendants; thereby invalidating my patents by
destroying all of my patents economic value.

REASONS FOR GRANTING THE WRIT
Allegations of direct infringement are subject to the pleading standards
established by Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007), and Ashcroft v. Iqbal, 556
U.S. 662 (2009). Under this standard, a court must dismiss a complaint if it fails to allege
“enough facts to state a claim to relief that is plausible on its face.” Twombly, 550 U.S. at 570.
This “facial plausibility” standard requires “more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not do.” Id. At 555. Rather, it requires the
plaintiff to allege facts that add up to “more than a sheer possibility that a defendant has acted
unlawfully.” Iqbal, 556 U.S. at 678; see Twombly, 550 U.S. at 555 (“Factual allegations must be
enough to raise a right to relief above the speculative level.”). Although courts do not require
“heightened fact pleading of specifics,” Twombly, 550 U.S. at 570, a plaintiff must allege
‘“enough fact[s] to raise a reasonable expectation that discovery will reveal’ that the defendant is

14

liable for the misconduct alleged.” In re Bill ofLading Transmission & Processing Sys. Pat.
Litig, 681 F.3d 1323, 1341 (Fed. Cir. 2012) (alteration in original) (quoting Twombly, 550 U.S.
at 556).
“To prove infringement, a patentee must supply sufficient evidence to prove that the
accused product or process contains, either literally or under the doctrine of equivalents,
every limitation of the properly construed claim.” Eli Lilly & Co. v. Hospira. Courts
“apply a two-step analysis to determine whether accused devices literally infringe a
patent’s claims. First, the claims are construed to determine their scope. Second, the
claims must be compared to the accused device. Literal infringement exists when every
limitation recited in the claim is found in the accused device.” EMED Techs. V. ReproMed. “A party asserting infringement under the doctrine of equivalents may prove its
case by showing, on an element-by-element basis, that the accused product performs
substantially the same function in substantially the same way with substantially the same
result as each claim limitation of the patented product.” Verinata Health v. Ariosa
Diagnostic.

I.

FED. R. Civ. P. 8(a)
The Federal Circuit reiterated that the Federal Rules of Civil Procedure generally

require “only a plausible ‘short and plain’ statement of the claim showing that the plaintiff is
entitled to relief’... anything greater is “inappropriate because a motion to dismiss tests the
sufficiency of the complaint, not the merits of the.claim.” Nalco Co. v. Chem-Mod, LLC, 2018
WL 1055851 (Feb. 27, 2018)
Federal Rule of Civil Procedure 8(a) governs the pleading requirements of a
complaint, including those related to patent infringement, and it requires only a "short and plain
statement" with a few requirements. FED. R. Civ. P. 8(a). "Rule 8(a) does not require that a
plaintiff plead facts sufficient to show that it will ultimately succeed on the merits." Robert A.

15

Matthews, Jr., General Aspects of Notice Pleading in a Complaint, ANNOTATED PATENT
DIGEST § 39:1,2(2010)

II.

Pro Se
In light of the hardships faced by pro se litigants and the fact that our pleadings

are not as artfully drafted as those drafted by attorneys, the United States Supreme Court held
that courts should liberally construe pro se pleadings, “See Haines v. Kerner, 404 U.S. 519, 520
(1972) (per curiam) (holding that pro se pleadings should be held "to less stringent standards
than formal pleadings drafted by lawyers.")
Because the Court has failed to flesh out how the standard should apply, district
courts apply different degrees of leniency. This makes the standard less reliable for pro se
litigants. See Douglas A. Blaze, Presumed Frivolous: Application ofStringent Pleading
Requirements in Civil Rights Litigation, 31 WM. & MARY L. REV. 935, 971-72 (1990).
Although the standard was based on Conley v. Gibson, after Bell Atlantic Corp. v.
Twombly and Ashcrovt v. Iqbal, it is unclear how "liberal" this standard is in practice. A liberal
pleading standard theoretically should not punish a pro se litigant "for his failure to recognize
subtle factual or legal deficiencies in his claims," Hughes v. Rowe, 449 U.S. 5, 15 (1980). This
seems to be wishful thinking, because the lower courts generally continue to cite the Twombly
standard even when considering pro se complaints. See, e.g., Sever in v. Parish ofJefferson, 357
F. App’x 601, 603 (5th Cir. 2009) (per curiam) (applying the plausibility standard to a pro se
complaint); Grabauskas v. CIA, 354 F. App’x 576, 576-77 (2d Cir. 2009) (dismissing a pro se
complaint for failing to raise a plausible inference of wrongdoing).

16
III.

Disparate Treatment
In DiPetto v. U.S. Postal Serv., 383 F. App’x 102, No. 09-3203-cv, 2010 WL

2724463 (2d Cir. Jul. 12, 2010), [t]he court stated that “the district court erred when it concluded
that Appellant failed to give fair notice of his claims as required under Rule 8(a)(2), because his
‘allegations, taken as true, indicate the possibility of discrimination and thus present a plausible
claim of disparate treatment.’” Id. (quoting Boykin, 521 F.3d at 215-16; and citing Swierkiewicz
v. Sorema N.A., 534 U.S. 506, 514 (2002)).
The court stated that it had “recently addressed the application of... Iqbal... to
pro se pleadings and noted that, even after ... Twombly ..., [it] remained] obligated to construe
pro se complaints liberally.” Id. (citing Harris v. Mills, 572 F.3d 66, 71-72 (2d Cir. 2009)). The
court stated that “while pro se complaints must contain sufficient factual allegations to meet the
plausibility standard, we should look for such allegations by reading pro se complaints with
‘special solicitude’ and interpreting them to raise the ‘strongest [claims] that they suggest.’” Id.
(alteration in original) (quoting Triestman v. Fed. Bureau ofPrisons, 470 F.3d 471, 474-75 (2d
Cir. 2006) (emphasis in original)).
The court further noted that “[w]ith respect to discrimination claims, [it had]
explained in Boykin v. KeyCorp, 521 F.3d 202, 212 (2d Cir. 2008)] that plaintiffs are not
required ‘to plead facts sufficient to establish a prima facie disparate treatment claim’ under Title
VII, because ‘the McDonnell Douglas burden-shifting framework ‘is an evidentiary standard, not
a pleading requirement,’ and that to require more than Rule 8(a)’s ‘simplified notice pleading
standard’ would unjustifiably impose a heightened pleading requirement on the plaintiff.’” Id.
(quoting Boykin, 521 F.3d at 212).

17

The court cited a prz-Twombly case law to emphasize that it had “held there is no
heightened pleading requirement for civil rights complaints alleging racial animus, and ha[d]
found such claims sufficiently pled when the complaint stated simply that the plaintiffs ‘[were]
African-Americans, describe[d] defendants’ actions in detail, and allege[d] that defendants
selected [plaintiffs] for maltreatment ‘solely because of their color.”” DiPetto, 2010 WL
2724463, at *1 (second, third, fourth, and fifth alterations in original) (quoting Phillip v. Univ. of
Rochester, 316 F.3d 291, 298 (2d Cir. 2003)). The Defendant’s in this current case are the
District court and Federal Circuit court Judges.
The court stated that “the district court erred when it concluded that Appellant
failed to give fair notice of his claims as required under Rule 8(a)(2), because his ‘allegations,
taken as true, indicate the possibility of discrimination and thus present a plausible claim of
disparate treatment.’” Id. (quoting Boykin, 521 F.3d at 215-16; and citing Swierkiewicz v.
Sorema N.A., 534 U.S. 506, 514 (2002)).
The following chart illustrates how I carefully, very carefully followed the rules,
guidelines, and precedence set forth and available to me to file my original complaint of alleged
patent infringement against the Defendants named in this case, in accordance to the pleading
standards established by Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007), and Ashcroft v.
Iqbal, 556 U.S. 662 (2009). When the District Court recommended dismissal of my original
complaint, the chart illustrates how I exceeded the requirements and plead even more facts “to
raise a reasonable expectation that discovery will reveal’ that the defendant(s) are liable for the
misconduct alleged.” In re Bill ofLading Transmission & Processing Sys. Pat. Litig, 681 F.3d
1323, 1341 (Fed. Cir. 2012) (alteration in original) (quoting Twombly, 550 U.S. at 556).

18
INITIAL COMPLAINT and AMENDED COMPLAINT
Well-Pleaded Factual Allegations

Initial
Complaint

Amended
Complaint

The Supreme Court has clarified that an argument is not frivolous, even
though “foreclosed by circuit precedent,” where the issue has “divided the
District Courts and its answer [is] not so clear as to make [the] position
frivolous.” McKnight v. Gen. Motors Corp., 511 U.S. 659, 660 (1994).

y

y

Once a patent issues, it is presumed valid. “A patent shall be presumed
valid.” 35 U.S.C. 282(a). In patent litigation, this has traditionally meant
that a complaint for infringement need not re-establish the patent’s
validity.

y

y

As the name “utility patent” suggests, the invention must be both useful
from a practical standpoint and operable. There is a “beneficial use” strand
of the utility requirement, which involves morality. When applying for a
patent, you must be able to show how the invention works in the real
world. Fantastic or hypothetical machines, are not patentable. An
invention will be found to have utility when a person with ordinary skill in
the art immediately appreciates why the invention is useful based on the
invention’s characteristics, and its usefulness is specific, credible, and ...

y

y

On August 7, 2020, Magistrate Judge Sarah Netburn (S.D.N.Y.) noted that
“a complaint for direct infringement survives a motion to dismiss if it: 1)
attaches the asserted patents to the complaint... Araujo v. E. Mishan &
Sons, Inc., No. 19-cv-5785 (GHW)(SN) (S.D.N.Y. Aug 7, 2020)

y

y

Judge Netburn noted that although photographs of the accused products
were not attached, the products are “sufficiently identified to give
Defendants notice of the direct infringement claims.”

y

y

To invoke the jurisdiction of a federal court under § 1338, it is necessary
that plaintiff allege facts that demonstrate that he, and not the defendant,
owns the patent rights on which the infringement suit is premised.

y

y

The court noted that “nothing about Twombly and Iqbal suggests that a
patent infringement complaint that largely tracks the language of the
claims to allege infringement is insufficient per se,” and that the
allegations were sufficiently specific to provide notice to the defendant.
Avago Techs. Gen. IP (Singapore) PTE Ltd. v. Asustek Computer, Inc.,
2016 WL 1623920, at *4 (N.D. Cal. Apr. 25, 2016).

y

y

In determining what should be required in a patent-infringement pleading
under the doctrine of equivalents, a court should begin with the two Iqbal
principles. First, the patentee should plead objective facts, and the court
must accept them as true. Second, the complaint must state a facially
plausible claim for relief under the standard of the doctrine of equivalents.
Ashcroft v. Iqbal, 129 S. Ct. 1937, 1949 (2009).

y

y

19

Well-Pleaded Factual Allegations

Initial
Complaint

Amended
Complaint

Federal Rule of Civil Procedure 8(a) governs the pleading requirements of
a complaint, including those related to patent infringement, and it requires
only a "short and plain statement" with a few requirements. FED. R. Civ.
P. 8(a). "Rule 8(a) does not require that a plaintiff plead facts sufficient to
show that it will ultimately succeed on the merits." Robert A. Matthews,
Jr., General Aspects of Notice Pleading in a Complaint, ANNOTATED
PATENT DIGEST § 39:1, 2 (2010)

y

y

Allegations supported by fact must allow the court to infer that the
defendant's product "performs substantially the same function in
substantially the same way to obtain the same result." Graver Tank & Mfg.
Co. v. Linde Air Prods. Co., 339 U.S. 605, 608 (1950) (internal quotes
omitted) (quoting Sanitary Refrigerator Co. v. Winters, 280 U.S. 30
(1929)).

y

y

Factual Allegations: Copy of patents that are presumed “valid” submitted
with the initial complaint, Doc. No. 1; # 3 Exhibit A - Patent No.
10,163,287 ("the '287 Patent"), # 4 Exhibit B - Patent No. 9,589,439 ("the
'439' Patent"), # 5 Exhibit C - No. 9,096,189 ("the '189 Patent"),
# 6 Exhibit D - Patent No. RE43,990 ("the '990 Patent"), # 7 Exhibit E Patent No. RE43,891 ("the '891 Patent"), # 8 Exhibit F - Patent No.
7,385,497 ("the '497 Patent")) (Entered: 09/11/2019)

y

The Federal Circuit, in the context of Rule 11 sanctions, has said that "a
claim chart is not a requirement of a pre-filing infringement analysis, as
the owner [or] inventor ... of a patent ought to have a clear idea of what
the patent covers." Q-Pharm, Inc. v. Andrew Jergens Co., 360 F.3d 1295,
1301 (Fed. Cir. 2004).

y

Factual Allegations: Copy of patents that are presumed “valid” submitted
with the amended complaint, Doc. No. 16; # 3 Exhibit A - Patent No.
10,163,287, # 4 Exhibit B - Patent No. 9,589,439, # 5 Exhibit C - No.
9,096,189, # 6 Exhibit D - Patent No. RE43,990, # 7 Exhibit E - Patent
No. RE43,891, # 8 Exhibit F - Patent No. 7,385,497) (Entered:
10/15/2019)

y

While not required, a claim chart comparing the patentee's claims and the
defendant's product should be enough to show the complaint is facially
plausible. Cf. N.D. Cal. Local Patent Rules 3-1 (2008) (requiring claim
chart 14 days after the Initial Case Management Conference, but including
a claim chart with the pleading has the additional benefit of getting the
plaintiffs claim construction in front of the judge very early...).

y

A pre-filing infringement analysis, consisting of an informed comparison
of the claims and the accused subject matter, should also be enough to
show the plaintiff is entitled to relief. Q-Pharm, 360 F.3d at 1300-01

y

20

Well-Pleaded Factual Allegations

Factual Allegations: Copy of disclosure document (Document No.
565732) submitted with the amended complaint, and filed with the
USPTO on November 26, 2004. The document is relied on for the
conception date of the inventions. Presented as factual evidence to
establish a conception date of record. Conception of at least that of a
CMDC device; stall, stop, and vehicle slow-down system, and lock
disabling mechanism. # 9 Exhibit G USPTO Disclosure Document.
Amended Complaint (kric,) (Entered: 10/15/2019)

Initial
Complaint

Amended
Complaint

S

Factual Allegations: CD copy of Plaintiff s testimony. Plaintiff discusses
the conception of ideas, the utility of the patent claims, and the way in
which the Defendants are possibly infringing Plaintiffs patents. # 10 Filed
separately as a Non-Standard Item (CD). Doc. No. 17; NON-STANDARD
ITEM RECEIVED: Exhibit H. Conception of CMDC Device (CD) from
Larry Golden re: 16 Amended Complaint, (kric,) (Entered: 10/15/2019)
Factual Allegations: Discovery evidence from the Department of
Homeland Security (DHS). CD of the DHS request for an advanced cell
phone (i.e. smartphone). DHS entered into cooperative agreements with
Defendants for the advanced smartphone that included fingerprint
biometrics; disabling locking mechanisms; advanced GPS and internet;
and RF near field communication (NFC). # 11 Exhibit I Filed Separately
as a Non-Standard Item (CD) Doc. No. 18 NON-STANDARD ITEM
RECEIVED: Exhibit I. Cell-All Smartphone (CD) from Larry Golden
re: 16 Amended Complaint (kric,) (Entered: 10/15/2019)
Factual Allegations: Copies of Plaintiff s response letters received from
members of the Executive Branch and Legislative Branch of Government,
entered as factual evidence to prove it was the Plaintiffs invention for the
advanced cell phone (i.e. smartphone) demonstrated on (CD) by the DHS.
The CMDC (i.e. smartphones) devices used by the Defendants. # 12
Exhibit J Response Letters. Amended complaint (Entered: 10/15/2019)

V

Factual Allegations: The claim charts for each Defendant includes “a
detailed, element-by-element infringement contention comparing the
patentee's claims to the allegedly infringing product, such as what is
currently required in an infringement contention, would seem to give a
presumption of impropriety and be sufficient to put the defendant on
notice” See N.D.Cal. Local Patent Rules 3-1 (2008). Included are the
allegedly infringing products specifications, pictures, and drawings.
#14 Exhibit L Claim chart for Apple Inc, #15 Exhibit M Claim Chart for
Samsung, #16 Exhibit N Claim Chart for LG Electronics, #17 Exhibit O
Claim chart for Qualcomm, #18 Exhibit P Claim chart for Motorola
Solutions, #19 Exhibit Q Claim Chart for Panasonic, #20 Exhibit R Claim
Chart for Ford, #21 Exhibit S Claim Chart for Chevrolet, #22 Exhibit T
Claim chart for FCA. Amended complaint (Entered: 10/15/2019)

s

21

Well-Pleaded Factual Allegations

Initial
Complaint

Factual Allegations: Evidence of the narrowing of claims from the first
‘497 patent to the last ‘287 patent. Evidence that the CMDC device is
synonymous with the patentee’s communication device, monitoring
device, detecting device, and controlling device; that’s substantially the
same as the Defendants CMDC (i.e. smartphone) devices under the
“doctrine of equivalents”. # 13 Exhibit K Claim Chart for the 287 Patent,
# 23 Exhibit U Claim Chart for 439 Patent, # 24 Exhibit V Claim Chart for
the 189 Patent (appears to be multiple groups of page numbers),
# 25 Exhibit W Claim Chart for 990 Patent, # 26 Exhibit X Claim Chart
for 891 Patent, # 27 Exhibit Y Claim Chart for 497 Patent) Amended
complaint (Entered: 10/15/2019)

Amended
Complaint

✓

In ruling on a motion to dismiss pursuant to Rule 12(b)(6) of the Rules of
Civil Procedure, the Court reviews the allegations of the Complaint in the
light most favorable to Plaintiffs. The Court’s inquiry is “whether, as a
matter of law, the allegations of the complaint, treated as true, are
sufficient to state a claim upon which relief may be granted under some
legal theory.” Harris v. NCNB Nat’lBankofN.C., 85 N.C. App. 669, 670,
355 S.E.2d 838, 840(1987).

Ignored by
the Courts

Ignored by
the Courts

“[A] complaint should not be dismissed for insufficiency unless it appears
to a certainty that plaintiff is entitled to no relief under any state of facts
which could be proved in support of the claim.” Sutton v. Duke, 277 N.C.
94, 103, 176 S.E.2d 161, 166 (1970) (emphasis omitted).

Ignored by
the Courts

Ignored by
the Courts

Only a few factual allegations are required to survive a Motion to Dismiss
a complaint alleging patent infringement, held the Southern District of
Florida in Raptor, LLC. and Concrete Services, LLC. v. Odebrecht
Construction, Inc. and Barreiro Construction Corp., NO. 17-21509-CIVALTONAGA (S.D. Fla. Feb. 13, 2018).

Ignored by
the Courts

Ignored by
the Courts

The United States Court of Appeals for the Federal Circuit (“Federal
Circuit”) addressed the pleading standards for direct infringement... in the
recent case of Nalco Co. v. Chem-Mod, LLC, 2018 WL 1055851 (Feb. 27,
2018). The district court had dismissed Nalco’s fourth amended
complaint with prejudice for failure to state a claim under Fed. R. Civ. P.
12(b)(6) ... [t]he Federal Circuit reversed, finding that it was improper to
determine disputed claim constructions or make factual determinations on
the motion to dismiss. The Federal Circuit reiterated that the Federal Rules
of Civil Procedure generally require “only a plausible ‘short and plain’
statement of the claim showing that the plaintiff is entitled to relief’...
“inappropriate because a motion to dismiss tests the sufficiency of the
complaint, not the merits of the claim.”

Ignored by
the Courts

Ignored by
the Courts

22

CANON 3
Upon information and belief, I believe the District Court Judges and the Circuit
Court Judges has a personal bias or prejudice toward me because I am Black. I believe further,
that the District Court Judges and the Circuit Court Judges lack the ability to be impartial, and is
favoring the defendants’ and the defendants’ attorneys because they all are white.
“Canon 3: A Judge Should Perform the Duties of the Office Fairly, Impartially and
Diligently (C) Disqualification. (1) A judge shall disqualify himself or herself in a
proceeding in which the judge’s impartiality might reasonably be questioned, including
but not limited to instances in which: (a) the judge has a personal bias or prejudice
concerning a party, or personal knowledge of disputed evidentiary facts concerning the
proceeding: (d)(ii) acting as a lawyer in the proceeding.”

Did the United States Court of Appeals for the Federal Circuit in No. 2020-1508,
before PROST, Chief Judge, LINN and TARANTO, Circuit Judges, err when they adjudicated
my case on the grounds that: “Golden’s amended complaint here, like his initial complaint, even
if not duplicative of the earlier filed action against the government, “contains only conclusory
formulaic recitations of the elements of patent infringement as to each defendant.” Magistrate
Judge Initial Order at 5, Golden v. Apple Inc., No. 6:19-cv-02557 (D.S.C. Oct. 1, 2019), ECF No.
12.”? The Federal Circuit determined in its finding that the District Court dismissal of my case
on the grounds of “duplicative of the earlier filed action against the government” is without
merit.
As a Pro Se, I researched patent infringement complaints submitted to the federal
courts by “whites” from all over the country. The research reveals that the general format or
standards for pleading patent infringement are basically the same. As a Pro Se, I followed the
format for drafting patent infringement complaints that was submitted by “whites”, accepted by

23

the Judges, and not challenged by the defendants on jurisdiction or whether the plaintiff has
stated a claim for which relief can be granted.
Following, are three cases filed as a cause of action “patent infringement”:
MetroSpec Technology LLC v. Hubbell Lighting, Inc.; Corning Optical Communications LLC v.
FiberSource Inc. Donald C Coggins, Jr, presiding; and, Golden v. Apple, Inc. Donald C
Coggins, Jr, presiding. Although all of the pleadings are basically the same, the only case that
was challenged and denied under Rule 12(b)(6) at the District level, and again at the Appeals
level for “frivolousness” and “conclusory formulaic recitations of the elements of patent
infringement as to each defendant” is Golden, a Black man, in Golden v. Apple, Inc.

The United States District Court for the District of Minnesota in No. 0:17-cv-00369;
MetroSpec Technology LLC v. Hubbell Lighting, Inc. Date filed: 02/03/2017
COUNT I:
(Infringement of the ‘631 Patent)
13. MetroSpec realleges and incorporates herein the allegations set forth in
Paragraphs 1-12.
114. Hubbell has directly infringed at least claims 1 and 3-6 of the ‘631 Patent
pursuant to 35 U.S.C. § 271(a), literally or under the doctrine of equivalents, by making,
using, selling, and/or offering for sale in the United States and without authority products
that infringe such claims, including the NorFlex product offered by Hubbell’s Thomas
Research Products division (hereinafter, the “Infringing Product”). If 15. Hubbell has also
and continues to indirectly infringe at least claims 1 and 3- 6 of the ‘631 Patent by
inducing others to infringe and/or contributing to the infringement of others, including
third party users of the Infringing Product in this judicial district and elsewhere in the
United States. Specifically, Hubbell has actively induced and continues to induce the
infringement of at least claims 1 and 3-6 of the ‘631 Patent by actively inducing the use
of the Infringing Product by third party users in the United States. When Hubbell offered
for sale or sold the Infringing Product, Hubbell knew or should have known that its
conduct would induce others to infringe claims 1 and 3-6 of the ‘631 Patent by using it.

24

Metro Spec alleges that third parties have infringed and will continue to infringe the ‘631
Patent in violation of 35 U.S.C. 271(a) by using the Infringing Product.
116. Hubbell has also contributorily infringed at least claims 1 and 3-6 of the
‘631 Patent by providing to third parties within the United States infringing devices that
are not staple articles of commerce suitable for substantial non-infringing uses.
MetroSpec believes that these third parties have infringed and will infringe the ‘631
Patent in violation of 35 U.S.C. 271 (a).
17. MetroSpec has suffered damages as a result of Hubbell’s infringement of the
‘631 Patent. In addition, MetroSpec will continue to suffer irreparable harm unless this
Court enjoins Hubbell from infringing the ‘631 Patent.

The United States District Court for the District of South Carolina in No.6:19-cv01322-DCC Coming Optical Communications LLC v. FiberSource Inc. Donald C
Coggins, Jr, presiding; Date filed: 05/06/2019; Date of last filing: 08/19/2020
COUNT I:
Patent Infringement of U.S. Patent No. 7,090,406 B2
47. COC repeats and realleges all previous allegations as if set forth in full
herein.
48. FiberSource has directly infringed at least independent claims 1, 21,40, and
58 and dependent claims 4, 6-18, 24, 26-37, 43, and 45-55 of the ’406 Patent by making,
using, offering to sell, selling, and/or importing, within this district or elsewhere in the
United States, preconnectorized fiber optic plug assemblies having features specifically
described and claimed in the ’406 Patent, including but not limited to preconnectorized
fiber optic plug assemblies that are or have been described as part of FiberSource’s pre­
terminated OSP drop cable product line, including but not limited to the OPSSCASCAPC 3M 3.0mm Singlemode Simplex product with a hardened plug connector.
149. On information and belief, FiberSource has also directly infringed at least
independent claims 1, 21, 40, and 58 and dependent claims 4, 6-18, 24, 26-37, 43, and
45-55 of the ’406 Patent by making, using, offering to sell, selling, and/or importing,
within this district or elsewhere in the United States, additional OptiTap® compatible
products with similar assemblies incorporating a crimp assembly having a crimp band

25

and a housing wherein the housing includes two shells, which have features specifically
described and claimed in the ’406 Patent.
f50. FiberSource has made, used, imported, offered to sell, or sold and/or is
making, using, importing, offering to sell, or selling products having features that are
specifically described and claimed in the ’406 Patent, including but not limited to
preconnectorized fiber optic plug assemblies covered by the ’406 Patent, including but
not limited to preconnectorized fiber optic plug assemblies that are or have been
described as part of FiberSource’s pre-terminated OSP drop cable product line, including
but not limited to the OPSSCA-SCAPC 3M 3.0mm Singlemode Simplex product with a
hardened plug connector.
TJ 51. On information and belief, FiberSource has also made, used, imported,
offered to sell, or sold and/or is making, using, importing, offering to sell, or selling
additional OptiTap® compatible products with similar assemblies with similar
assemblies incorporating a crimp assembly having a crimp band and a housing wherein
the housing includes two shells, having features that are specifically described and
claimed in the ’406 Patent.
*| 52. The aforesaid acts by FiberSource are without right, license, or permission
from COC.
53. On information and belief, FiberSource has willfully, deliberately, and
intentionally infringed COC’s ’406 Patent.
f 54. FiberSource’s willful, deliberate, and intentional infringement of the ’406
Patent has caused COC irreparable harm and damages, including lost sales, lost profits,
lost sales opportunities, and loss of good will, in an amount to be determined at trial.
155. FiberSource’s willful, deliberate, and intentional infringement of the ’406
Patent has also caused COC further irreparable harm and damages, and will entitle it to
recover, among other things, treble damages, attorneys’ fees, and costs.
]f 56. On information and belief, FiberSource intends to continue the infringing
activities described herein.
The United States District Court for the District of South Carolina in
No. 6:19-cv-02557-DCC Golden v. Apple, Inc. Donald C
Coggins, Jr, presiding

26

COUNT I:
(Infringement of the ‘287 Patent)
1156 Plaintiff alleges that at least one of the Defendants named in this complaint
has infringed at least independent claim 4 & 5 of the ‘287 patent that covers Plaintiffs
communication, monitoring, detecting and controlling (CMDC) device. Exhibit K:
Claim Chart for the ‘287 Patent
f 157 On information and belief, Apple is jointly, directly and/or indirectly
infringing at least claim 5 of the ‘287 patent in this judicial district and elsewhere in
South Carolina and the United States by, among other things, making, using, offering for
sale, selling and/or importing computerized communications devices (i.e. iPhone 7 series,
iPhone 8 series, iPhone X series, iPhone XS series, iPhone XR series, iPhone 11 series,
and Apple Watch series 3, 4, & 5) included without limitation Plaintiffs CMDC devices.
As set forth in Golden’s preliminary infringement contentions that Apple is making,
using, offering for sale, selling and/or importing of the CMDC device have at a minimum
directly infringed the ‘287 patent and Apple is thereby liable for infringement of the ‘287
patent pursuant to 35 U.S.C. § 271. Apple have caused damage to Golden, which
infringement and damage will continue unless and until Apple is enjoined. Exhibit L:
Claim Chart for Apple Inc.
^ 158 On information and belief, Apple is jointly, directly and/or indirectly
infringing at least claim 5 of the ‘287 patent in this judicial district and elsewhere in
South Carolina and the United States by, among other things, making, using, offering for
sale, selling and/or importing computerized communications devices (i.e. iPhone 7 series,
iPhone 8 series, iPhone X series, iPhone XS series, iPhone XR series, iPhone 11 series,
and Apple Watch series 3, 4, & 5) included without limitation the Plaintiffs CMDC’s
global positioning system (GPS) used with CMDC devices for locating and tracking; the
CMDC’s internet used with CMDC devices for mobile internet to fit the dimensions of a
CMDC device; the CMDC’s central processing unit used with CMDC devices for mobile
application processing i.e. system-on-a-chip (SoC); the CMDC’s chemical / biological
monitoring used with CMDC devices for monitoring human heartrate; the CMDC’s radio
frequency near-field communication (NFC) used with CMDC devices for short-range
reading of NFC tags; the CMDC’s lock disabling mechanism used with CMDC devices

27

for locking the CMDC device after several failed attempts to open the CMDC device;
and, the CMDC’s biometric identification (i.e. fingerprint, facial) used with CMDC
devices for identifying an authorized user of the CMDC device. As set forth in Golden’s
preliminary infringement contentions that Apple is making, using, offering for sale,
selling and/or importing of the CMDC device have at a minimum directly infringed the
‘287 patent and Apple is thereby liable for infringement of the ‘287 patent pursuant to 35
U.S.C. § 271. Apple have caused damage to Golden, which infringement and damage
will continue unless and until Apple is enjoined.
1159 The alleged infringement of Apple identified in this Count has caused
irreparable injury to Golden for which remedies at law are inadequate. Considering the
balance of the hardships between the parties, a remedy in equity, such as a permanent
injunction is warranted and such a remedy would be in the public interest.

It is unclear to me why the Circuit Judges referenced 1156, “Count I of Golden’s
Amended Complaint, for example, merely states that “at least one of the defendants named in
this complaint has infringed at least independent claim 4 & 5 of the ’287 patent,” Complaint at 1
156, Golden v. Apple Inc., No. 6:19-cv-02557 (D.S.C. Oct. 15, 2019), ECF No. 16-1”. Para, f
156 is specific to the ‘287 patent and what specific claims I am alleging each one of the
defendants are infringing.
(See the chart below). At the end of the f 156,1 referenced a claim chart for the
‘287 patent as “Exhibit K”. The claim chart illustrates (factual pleading) how my claims evolved
from my first (‘497) patent, and can be used in determining if claim construction is needed.

5

APPLE INC.
11157-159

5

LG ELECTRONICS USA INC.
H 163 -165

4&5

AT&T INC.
11175-177

5

MOTOROLA SOLUTIONS, INC.
11169-171

28

1 &5

BIG O DODGE CHRYSLER JEEP
RAM

5

PANASONIC CORPORATION
172-174

1fl[ 202 -204

1 &5

FCA US LLC
199 -201

4&5

QUALCOMM, INC.
H 166-168

1 &5

FAIRWAY FORD LINCOLN OF
GREENVILLE fU 190 -192

5

SAMSUNG ELECTRONICS USA
UTI160 -162

1&5

FORD GLOBAL
TECHNOLOGIES, LLC
ff 187-189

4&5

SPRINT CORPORATION
It 181 -183

1 &5

GENERAL MOTORS COMPANY
Ht 193 -195

4&5

T-MOBILE USA, INC.
It 184-186

1&5

KEVIN WHITAKER
CHEVROLET
tt 196 -198

4&5

VERIZON CORPORATE
SERVICES GROUP tt 178 -180

Did the United States Court of Appeals for the Federal Circuit in No. 2020-1508,
before PROST, Chief Judge, LINN and TARANTO, Circuit Judges, err when they adjudicated
my case on the grounds that: “followed by generalized statements of infringement by each
defendant, id. at tt 157- 204, and similar broad infringement allegations for each of Golden’s
other patents, id. at tt 205-384”?
Unlike the other two examples above, MetroSpec Technology LLC v. Hubbell
Lighting, Inc. and Corning Optical Communications LLC v. FiberSource Inc., whose complaints
were accepted without a challenge of 12(b)(6), my statements are not broad, but instead, they are
narrowed to specifically identify the alleged infringement product(s) of the defendants, the
products’ function or purpose, and the specific patent claims I have alleged the defendants are
infringing:

29
(i.e. iPhone 7 series, iPhone 8 series, iPhone X series, iPhone XS series, iPhone XR
series, iPhone 11 series, and Apple Watch series 3, 4, & 5) included without limitation
the Plaintiffs CMDC’s global positioning system (GPS) used with CMDC devices for
locating and tracking; the CMDC’s internet used with CMDC devices for mobile internet
to fit the dimensions of a CMDC device; the CMDC’s central processing unit used with
CMDC devices for mobile application processing i.e. system-on-a-chip (SoC); the
CMDC’s chemical / biological monitoring used with CMDC devices for monitoring
human heartrate; the CMDC’s radio frequency near-field communication (NFC) used
with CMDC devices for short-range reading of NFC tags; the CMDC’s lock disabling
mechanism used with CMDC devices for locking the CMDC device after several failed
attempts to open the CMDC device; and, the CMDC’s biometric identification (i.e.
fingerprint, facial) used with CMDC devices for identifying an authorized user of the
CMDC device.”

To better understand what “broadness” means when referring to a patent, I have
included a chart below that illustrates and breaks down the limitations (elements) of Steve Job’s
(Apple, Inc) first patent for the smartphone. Steve Jobs (Apple, Inc) should not have been issued
the patent because my first disclosure and patent filing anticipate the Jobs’ patent. Further, it is
my belief the Government disclose my intellectual property specifications with Jobs before he
filed for his first patent for the electric device (i.e. smartphone).
APPLE’S FIRST iPHONE DESIGN PATENT CHART
APPLE’S ELECTRONIC DEVICE v. GOLDEN’S CMDC DEVICE

Apple’s 1st Patent for the Smartphone (i.e.
electronic device) ornamental design: First
application filing date is January 5,2007
(App. # D/270,887)

Golden’s Patents for the Detector Case (i.e.
CMDC) ornamental design: USPTO
Disclosure Document filed Nov. 17,2004;
First application filing date is April 5,2006
(App. # 11/397,118)

30

Electronic Device: “The device (i.e. electronic
device) which controls the flow of electrons is
called electronic device. These devices are the
main building blocks of electronic circuits. The
various electronic devices are computers, mobile
phones, etc.” https://www.physics-and-radioelectronics.com/electronic-devices-andcircuits.html

CMDC Device: The detector case includes a power
source (battery or electrical) ... A cpu 40 is
mounted within the detector case 12 and
electrically interconnects, routes, and transmits
signals among items hereinafter further described
and also communicates

FIG. 1 is a front perspective view of an electronic
device in accordance with the present design.

The detector case 12 includes a top 22, a bottom
24, a pair of opposed sides 26 and a front side or
panel 28 and an opposite rear or back side 30

FIG. 2 is a rear perspective view for the electronic
device.

The detector case 12 includes a top 22, a bottom
24, a pair of opposed sides 26 and a front side or
panel 28 and an opposite rear or back side 30

FIG. 3 is a front view for the electronic device.

The detector case 12 includes a top 22, a bottom
24, a pair of opposed sides 26 and a front side or
panel 28 and an opposite rear or back side 30

FIG. 4 is a rear view for the electronic device.

The detector case 12 includes a top 22, a bottom
24, a pair of opposed sides 26 and a front side or
panel 28 and an opposite rear or back side 30

FIG. 5 is a top view for the electronic device.

The detector case 12 includes a top 22, a bottom
24, a pair of opposed sides 26 and a front side or
panel 28 and an opposite rear or back side 30

FIG. 6 is a bottom view for the electronic device.

The detector case 12 includes a top 22, a bottom
24, a pair of opposed sides 26 and a front side or
panel 28 and an opposite rear or back side 30

FIG. 7 is a left side view for the electronic device;
and,

The detector case 12 includes a top 22, a bottom
24, a pair of opposed sides 26 and a front side or
panel 28 and an opposite rear or back side 30

FIG. 8 i^ a right-side view for the electronic device

The detector case 12 includes a top 22, a bottom
24, a pair of opposed sides 26 and a front side or
panel 28 and an opposite rear or back side 30

31

The broken lines depicted in FIGS. 1, 2, and 6 of
the inner rectangle, at the center bottom of the
electronic device, represent the bounds of the
claimed design, while the broken lines inside the
rectangle, shown only in FIG. 6, are directed to
environment and are for illustrative purposes only;
the broken lines from no part of the claimed
design.

The article is not limited to the scale shown herein.
As indicated in the title, the article of manufacture
to which the ornamental design has been applied is
an electronic device. Examples of an electronic
device are a computer, a portable or hand-held
device, a personal digital assistant, a
communication device (e.g., cellular phone), a
novelty item, toy, and/or the like.

The first iPhone featured a two-tone back that was
mostly made of aluminum — a design element that
the company would return to this year with the
release of the iPhone 5 with a predominantly metal
back. Apple's interim devices opted for different
materials: The iPhone 3G and 3GS had plastic
backs, while the iPhone 4 and 4S backs were made
of glass. Retrieved from:
https://appleinsider.com/articles/12/12/18/applewins-patent-for-first-iphone-designed-by-jobs-ive

Fig. 1 is an illustrative drawing of the rectangle
design of the detector case; and, Fig. 17 are
illustrative drawings of the rectangle design of the
cell phone (i.e. smartphone) and the cell phone
detector case

FIG. 15 is a representative schematic view of... a
monitoring PC or computer terminal. It is another
objective of the present invention to provide...
products grouped together by common features in
several product groupings such as design
similarity... product grouping strategy has been
developed wherein products... having the same or
similar design... [i]n addition to grouping products
together by features, designs and materials... FIG.
17 is a perspective view... of the present invention
illustrating the incorporation of the features and
elements of the detector case to a cell phone and
cell phone case
... [Pjroduct grouping strategy has been developed
wherein products made from the same or similar
material, products having the same or similar
design... [i]n addition to grouping products
together by features, designs and materials... the
products grouped into what may be referred to as
Product grouping 3 (detector case; modified and
adapted)... the products grouped into what may be
referred to as Product grouping 4 (monitoring &
communication devices) include... mobile
communication devices... personal computers
(PCs), laptops, cell phones, personal digital
assistants (PDAs)... handhelds

What makes the Steve Jobs’ (Apple, Inc) patent so broad; it is a “design” patent
(what the smartphone should look like) used broadly as a “utility” patent (how the smartphone
should work). Steve Jobs is recognized all over the World, to include this Court, as the first to
invent the smartphone. I understand why Circuit Court and the District Court is refusing to allow

32

my case to go forward, and that is because all of my narrowed pleadings indicate, I, a Black man,
am the inventor who should be recognized as inventing the smartphone (CMDC device).
To avoid the harsh reality of a “white” man having stolen the invention for the
smartphone from a black man, the United States District Court for the District of South Carolina
in No. 6:19-cv-02557-DCC, and the United States Court of Appeals for the Federal Circuit in
No. 2020-1508, have devised tactics in opinions (“broad infringement allegations”) to dismiss
my case without a jury weighting in on the evidence. Canon 3:(C)(1)(a) violations.
Did the United States Court of Appeals for the Federal Circuit in No. 2020-1508,
before PROST, Chief Judge, LINN and TARANTO, Circuit Judges, err when they adjudicated
my case on the grounds that: “the complaint itself offers only vague generalities... nowhere
points us to any nonfrivolous allegations of infringement of any claim by any actual product
made, used, or sold by any defendant”? Below, is an example of my pleadings for Apple Inc. but
is illustrative of all the pleadings for all the defendant’s:
“in this judicial district and elsewhere in South Carolina and the United States by, among
other things, making, using, offering for sale, selling and/or importing computerized
communications devices (i.e. iPhone 7 series, iPhone 8 series, iPhone X series, iPhone
XS series, iPhone XR series, iPhone 11 series, and Apple Watch series 3, 4, & 5)” % 157;
“[a]s set forth in Golden’s preliminary infringement contentions that Apple is making,
using, offering for sale, selling and/or importing of the CMDC device have at a minimum '
directly infringed the ‘287 patent and Apple is thereby liable for infringement of the ‘287
patent pursuant to 35 U.S.C. § 271” % 157; “in this judicial district and elsewhere in
South Carolina and the United States by, among other things, making, using, offering for
sale, selling and/or importing computerized communications devices (i.e. iPhone 7 series,
iPhone 8 series, iPhone X series, iPhone XS series, iPhone XR series, iPhone 11 series,
and Apple Watch series 3, 4, & 5)” f 158; and, “[a]s set forth in Golden’s preliminary
infringement contentions that Apple is making, using, offering for sale, selling and/or
importing of the CMDC device have at a minimum directly infringed the ‘287 patent and

33

Apple is thereby liable for infringement of the ‘287 patent pursuant to 35 U.S.C. § 271.”
f 158
Therefore, when the Circuit Court stated, “nowhere points us to any nonffivolous
allegations of infringement of any claim by any actual product made, used, or sold by any
defendant”, that is simply not true. As noted above, I alleged that each defendant, “among other
things, making, using, offering for sale, selling and/or importing computerized communications
devices”; “is making, using, offering for sale, selling and/or importing of the CMDC device have
at a minimum directly infringed the ‘287 patent”.
Did the United States Court of Appeals for the Federal Circuit in No. 2020-1508,
before PROST, Chief Judge, LINN and TARANTO, Circuit Judges, err when they determined
my factual allegations was not enough to raise a right to relief above the speculative level?
Unlike the other two examples above, MetroSpec Technology LLC v. Hubbell
Lighting, Inc. and Corning Optical Communications LLC v. FiberSource Inc., whose complaints
were accepted without a challenge of 12(b)(6), and without having to submit claim charts, I
submitted at least twenty (20) claim charts, two (2) CD’s, and response letters from members of
the executive and legislative branches of government as evidence of conception. Summagraphics
Corporation v. U.S. “to help construct clear claim arguments, the court determined that “Partial
Dismissal Order made clear this court’s intention that patent claims not delineated in plaintiffs
pretrial statement shall no longer be asserted in this case... [p]laintiff s pretrial statement failed
to include claim charts relating to the Nadon patent; thus, plaintiff shall also be precluded from
asserting the Nadon patent at trial... “[s]et as precedent, all litigation that occurs now includes
detailed claim charts well before discovery has ended”. I submitted claim charts to satisfy the
requirement of “enough [factual allegations] to raise a right to relief above the speculative level”.

34

“AMENDED COMPLAINT against AT&T Inc, Apple Inc, Big O Dodge Chrysler Jeep
Ram, FCA US LLC, Fairway Ford Lincoln of Greenville, Ford Global Technologies
LLC, General Motors Company, Kevin Whitaker Chevrolet, LG Electronics USA Inc,
Motorola Solutions Inc, Panasonic Corporation, Qualcomm Inc, Samsung Electronics
USA, Sprint Corporation, T-Mobile USA Inc, Verizon Corporate Services Group, filed
by Larry Golden. Service due by 1/13/2020 (Attachments: # \ attachment to complaint
"Amended complaint", # 2 List of companies, # 3 Exhibit A Patent No 10,163,287,
# 4 Exhibit B Patent No 9,589,439, # 5 Exhibit C Patent No 9,096,189, # 6 Exhibit D
Patent No RE43,990, # 7 Exhibit E Patent No RE43.891, # 8 Exhibit6 F Patent No
7,385,497, # 9 Exhibit G USPTO Disclosure Document, # 10 Filed separately as a Non
Standard Item (CD), # IT Exhibit I Filed Separately as a Non Standard Item (CD),
# 12 Exhibit J Response Letters, # L3 Exhibit K Claim Chart for the 287 Patent,
# 14 Exhibit L Claim chart for Apple Inc, # 15 Exhibit M Claim Chart for Samsung,
# 16 Exhibit N Claim Chart for LG Electronics, # 17 Exhibit O Claim chart for
Qualcomm, # 18 Exhibit P Claim chart for Motorola Solutions, # 19 Exhibit Q Claim
Chart for Panasonic, # 20 Exhibit R Claim Chart for Ford, # 21 Exhibit S Claim Chart for
Chevrolet, # 22 Exhibit T Claim chart for FCA, # 23 Exhibit U Claim Chart for 439
Patent, # 24 Exhibit V Claim Chart for the 189 Patent (appears to be multiple groups of
page numbers), # 25 Exhibit W Claim Chart for 990 Patent, # 26 Exhibit X Claim Chart
for 891 Patent, # 27 Exhibit Y Claim Chart for 497 Patent) See non-standard item
entries L7 and 18 . (kric,) Modified on 10/15/2019 to add linkage, (kric, ). (Entered:
10/15/2019)”
It is my belief, the Circuit Court and the District Court dismissed my case for at
least one of the following reasons: my race; to protect the defendants; to protect the government;
and/or, to protect the Judges.

ENOUGH FACTUAL ALLEGATIONS

35

On August 7, 2020, Magistrate Judge Sarah Netbum (S.D.N.Y.) noted that “a
complaint for direct infringement survives a motion to dismiss if it: 1) attaches the asserted
patents to the complaint... Araujo v. E. Mishan & Sons, Inc., No. 19-cv-5785 (GHW)(SN)
(S.D.N.Y. Aug 7, 2020).
Following is at least one of twelve independent claims asserted in the present case
against the cell phone (i.e. smartphone) manufacturers that factually describes how certain
Defendants in this case has allegedly infringed every limitation (element) of my CMDC device;
independent claim 23 of the 9,589,439 patent:
23.

A cell phone comprising:

a central processing unit (CPU) for executing and carrying out the instructions of
a computer program;
a transmitter for transmitting signals and messages to a cell phone detection
device; a receiver for receiving signals from the cell phone detection device;
at least one of a satellite connection, Bluetooth connection, WiFi connection,
internet connection, radio frequency (RF) connection, cellular connection, broadband
connection, long range radio frequency (RF) connection, short range radio frequency
(RF) connection, or GPS connection;
the cell phone is at least a fixed, portable or mobile communication device
interconnected to the cell phone detection device, capable of wired or wireless
communication therebetween; and
whereupon the cell phone is interconnected to the cell phone detection device to
receive signals or send signals to lock or unlock doors, to activate or deactivate security
systems, to activate or deactivate multi-sensor detection systems, or to activate or
deactivate the cell phone detection device;
at least one of a chemical sensor, a biological sensor, an explosive sensor, a
human sensor, a contraband sensor, or a radiological sensor capable of being disposed
within, on, upon or adjacent the cell phone;
wherein at least one of the satellite connection, Bluetooth connection, WiFi

36

connection, internet connection, radio frequency (RF) connection, cellular connection,
broadband connection, long range radio frequency (RF) connection, short range radio
frequency (RF) connection, or GPS connection is capable of signal communication with
the transmitter or the receiver;
wherein the cell phone is equipped with a biometric lock disabler that
incorporates at least one of a fingerprint recognition, voice recognition, face recognition,
hand geometry, retina scan, iris scan, or signature such that the cell phone is locked by
the biometric lock disabler to prevent unauthorized use; and
whereupon a signal sent to the receiver of the cell phone detection device from at
least one of the chemical sensor, the biological sensor, the explosive sensor, the human
sensor, the contraband sensor, or the radiological sensor, causes a signal that includes at
least one of location data or sensor data to be sent to the cell phone.

Following is nine dependent claims asserted in the present case against the
automobile manufacturers that factually describes how certain Defendants in this case has
allegedly infringed each dependent claim for my pre-programmed stall, stop, or vehicle slow­
down system; dependent claims 47-55 of the RE43,891 patent are written to stand alone:
47.

The vehicles' stall-to-stop means or the vehicles' slowdown means

of claim 44, further can be adapted, modified or designed to include a vehicle system
designed to perform as a brake override system for stopping or slowing a vehicle
experiencing unintended acceleration.
48.

The vehicles' stall-to-stop means or the vehicles' slowdown means

of claim 44, further can be adapted, modified or designed to include a vehicle system
designed to perform as a pre-crash system for stopping or slowing a vehicle to prevent a
crash.
49.

The vehicles' stall-to-stop means or the vehicles' slowdown means

of claim 44, further can be adapted, modified or designed to include a vehicle system
designed to perform as a reverse acceleration slow-down system for stopping or slowing
a vehicle traveling in reverse.

37

50.

The vehicles' stall-to-stop means or the vehicles' slowdown means

of claim 44, further can be adapted, modified or designed to include a vehicle system
designed to perform as a stabilization system for stopping or slowing a vehicle to prevent
a vehicle turnover.
51.

The vehicles' stall-to-stop means or the vehicles' slowdown means

of claim 44, further can be adapted, modified or designed to include a vehicle system
designed to perform as a lane departure system for stopping or slowing a vehicle to
prevent or minimize accidents when the vehicle begins to move out of its lane.
52.

The vehicles' stall-to-stop means or the vehicles' slowdown means

of claim 44, further can be adapted, modified or designed to include a vehicle system
designed to perform as a remote vehicle slowdown system for stopping or slowing a
vehicle by remote means.
53.

The vehicles' stall-to-stop means or the vehicles' slowdown means of

claim 44, further can be adapted, modified or designed to include a vehicle system
designed to perform as an adjusted cruise control system for stopping or slowing a
vehicle to prevent a crash.
54.

The vehicles' stall-to-stop means or the vehicles' slowdown means

of claim 44, further can be adapted, modified or designed to include a vehicle system
designed to perform as a door lock and unlocking system for stopping or slowing the
vehicle and locking a terrorist, thief, or user trying to elude the law inside the vehicle.
55.

The vehicles' stall-to-stop means or the vehicles' slowdown means

of claim 44, further can be adapted, modified or designed to include a vehicle designed to
perform as a driverless or autonomous vehicle for stopping or slowing a vehicle that is in
operation with or without a user, driver or operator inside the vehicle.

Following is one independent claim asserted in the present case against the
smartphone manufacturers and the automobile manufacturers asserted in this case, that factually
describes how my CMDC device allegedly infringed by certain Defendants, is interconnected to

38

my stall, stop, or vehicle slow-down system allegedly infringed by certain Defendants;
independent claim 58 of the RE43,891:
58.

A stall-to-stop or vehicle slow-down system for slowing and stopping a

vehicle wherein the vehicle includes a transceiver carried by the vehicle, and a stall-tostop or vehicle slow-down system that are interconnected to the electromotive system of
the vehicle, comprising:
at least one cell phone tower that sends a signal to the vehicle;
at least one satellite that sends a signal to the vehicle and receives a signal from
the vehicle;
wherein the at least one satellite or the at least one cell phone tower is capable of
signal communication with the transceiver on the vehicle; and
a communication device that is a cell phone, a smart phone, or a PDA that causes
the signal to be sent from the cell phone tower to the vehicle that actuates the stall-to-stop
or vehicle slow-down system due to unauthorized use of the vehicle, wherein the
communication device is remote from the vehicle and free from contact with the vehicle.

CONCLUSION
I am not seeking sanctions for the Judges, nor am I trying to initiate a ruling on
the Judges’ behavior for recommendation of future impeachment hearings. All I am seeking is
the opportunity to present my case before a jury of my peers.
In the recent case of Nalco Co. v. Chem-Mod, LLC, 2018 WL 1055851 (Feb. 27,
2018). The district court had dismissed Nalco’s fourth amended complaint with prejudice for
failure to state a claim under Fed. R. Civ. P. 12(b)(6)... [t]he Federal Circuit reversed, finding
that it was improper to determine disputed claim constructions or make factual determinations on
the motion to dismiss. The Federal Circuit reiterated that the Federal Rules of Civil Procedure
generally require “only a plausible ‘short and plain’ statement of the claim showing that the
plaintiff is entitled to relief’

39
In light of the hardships faced by pro se litigants and the fact that our pleadings
are not as artfully drafted as those drafted by attorneys, the United States Supreme Court held
that courts should liberally construe pro se pleadings, “See Haines v. Kerner, 404 U.S. 519, 520
(1972) (per curiam) (holding that pro se pleadings should be held "to less stringent standards
than formal pleadings drafted by lawyers.").
Why is it I am required to present more than a plausible ‘short and plain’
statement to show I am entitled to relief; why is it I, a Pro Se litigant, is required to present
pleadings on standards greater than that of lawyers; and, why am I as an African-American
forced to defend myself against defenses of Judges? My pleadings are drafted on alleged patent
infringement against the Defendants named in this case. The evidence presented in this petition
is sufficient enough to show the Judges dismissed my case because I am a Pro Se AfricanAmerican bringing an action against white Defendants.
I am asking the United States Supreme Court to grant certiorari and reverse the
decision of the Federal appeals court, and remand the Federal appeals court to order my case
back to the District trial court.

Respectfully submitted,

S/
Larry GolddSfPetitioner, Pro Se
740 Woodruff Rd„ #1102
Greenville, South Carolina 29607
Date: 10/31/2020

atpg-tech@charter.net

40

CERTIFICATE OF SERVICE
The undersigned hereby certifies that on this 31st day of October, 2020, a true and correct
copy of the foregoing PETITION FOR WRIT OF CERTIORARI was served upon the following
defendant by Priority “Express” Mail:

Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
(202) 479-3000

s/j

Larry Garefen, Pro Se
740 Woodruff Rd„ #1102
Greenville, South Carolina 29607
atpg-tech@charter.net

